                     U.S. DEPARTMENT OF THE INTERIOR
                         OFFICE OF INSPECTOR GENERAL




                                AUDIT REPORT



           DEPARTMENT OF THE INTERIOR
            CONCESSIONS MANAGEMENT




REPORT NO. C-IN-MOA-0049-2004                 JUNE 2005
                        EXECUTIVE SUMMARY
WHY WE DID THIS               WHAT WE FOUND
AUDIT
                          The Department of the Interior needs to implement an
We audited concessions    effective concessions program—not doing so puts the
management because of its Department in jeopardy of failing to achieve its strategic goals
importance to the         and missions.
Department’s strategic
goal of providing             Although concessions play a major role in the Department’s
recreation opportunities to   goal of providing recreation opportunities for America, the
visitors of public lands.     Department has not focused sufficient attention or taken an
The Department has also       active role in concessions management. For example, we
established a goal of         found insufficient management support, employees
providing for and             discouraged by a limited career path, a lack of information
receiving fair value in       available to make decisions, and no comprehensive policy for
recreation. The OIG has       capital improvements or concession agreements. Because its
never conducted a             concession program is ineffective and does not follow sound
Department-wide review        business principles and practices, the Department is not
of this program. Prior        receiving fair value for concession activities. While states
audits of the individual      such as California and Florida receive concession fees as high
bureaus’ programs have        as 16 and 18 percent of concessioner revenue, the
identified weaknesses in      Department’s concession fees average less than 6 percent.
the area of concessions       Although the Department may not be able to reach
management. Our audit         percentages as high as California and Florida, we believe the
objective was to determine    Department could increase its average concession fees. By
whether the concessions       not maximizing the program’s effectiveness, the Department
program in the                risks:
Department of the Interior
was managed effectively.            ¾     Not achieving future revenue goals for the
To achieve our objective,                 program, resulting in fewer dollars available for
we reviewed pertinent                     needed facilities maintenance and repair.
information and activities
in four bureaus and                 ¾     Not meeting the demand for public recreation
surveyed 251 employees                    services without significant investment.
with concession
responsibilities. Thirty-           ¾     Destruction or degradation of natural resources.
three percent of the
employees responded.          Concessioners are the main providers of commercial services
                              to the almost 473 million people who visit the Department’s
                              recreational sites each year. The Department has well over
                              600 concession agreements administered by four bureaus.

                              Our conclusions are not new or unfamiliar. Previous reports


                                             i
identified significant management issues at least as far back as
1990. Our audit results showed the same conditions still exist.
In addition, program employees’ responses to our survey
emphasized these very same management issues as significant
problems. Without Departmental emphasis, this program will
continue to struggle. We are recommending that the
Department provide leadership in:

    ¾     Implementing an effective concessions program.

    ¾     Building a human capital strategy that addresses
          training and career development for concessions
          program employees.

    ¾     Implementing a management information system to
          collect and report comprehensive data for
          concessions management.

    ¾     Establishing comprehensive policies including
          addressing all aspects of concessioners’ capital
          improvements.




               ii
                                  TABLE OF CONTENTS
                                                                                                                   PAGE

INTRODUCTION..................................................................................................... 1

         BACKGROUND ............................................................................................ 1

RESULTS OF AUDIT .............................................................................................. 3

         LEADERSHIP ............................................................................................    4

         INVESTMENT IN HUMAN CAPITAL...........................................................                     7

         MANAGEMENT INFORMATION SYSTEM – TO CAPTURE
           AND REPORT INFORMATION...............................................................                    9

         POLICY AND GUIDANCE .......................................................................... 10

         CONCESSION AGREEMENT BACKLOG AT NPS ........................................ 13

         PERFORMANCE PLAN AND MEASURES .................................................... 13

         ALTERNATIVE ORGANIZATIONAL STRUCTURE ....................................... 14

RECOMMENDATIONS, ASSISTANT SECRETARY RESPONSE, AND
  OFFICE OF INSPECTOR GENERAL REPLY .................................................. 15

APPENDIXES

         1.      OBJECTIVE, SCOPE, AND METHODOLOGY....................................... 21

         2.      RESULTS OF EMPLOYEE SURVEY .................................................... 23

         3.      NON-APPROPRIATED FUND INSTRUMENTALITY ............................. 25

         4.      PRIOR AUDITS ................................................................................. 27

         5.      DEPARTMENT RESPONSE ................................................................ 29

         6.      STATUS OF AUDIT RECOMMENDATIONS ......................................... 35

PHOTO CREDITS ................................................................................................... 37

                                                          iii
This Page Intentionally Left Blank




                iv
                    INTRODUCTION
                   America has turned to public lands for recreation and inspiration
                   since 1872 when Congress created Yellowstone National Park.
LAKE HOTEL 1890    To enhance the visitors’ experience, the Department of the
                   Interior (Department or DOI) authorizes commercial services on
                   public lands through concession agreements. Concessioners
                   provide facilities and services, such as lodging, food, shops,
                   marinas, guides, and outfitters to millions of visitors annually.

                   The Department’s management of concessions faces many
                   challenges. Despite multiple studies and numerous
                   recommendations, the Department has not developed a proactive
                   and cohesive plan to improve concessions management. Rather,
                   DOI bureaus have continued to operate the program as
                   independent entities and have not been able to optimize program
                   results.

                   Our report will give the Department insight into some of the key
                   issues and present strategies for improvement. For information
                   on the objective, scope, and methodology of our audit, please see
                   Appendix 1.

                   Providing visitor services is a fundamental mission for the
BACKGROUND         Department. Within the Department, the National Park Service
                   (NPS), the Bureau of Land Management (BLM), the Bureau of
                   Reclamation (BOR), and the Fish and Wildlife Service (FWS)
                   use concessions to help accomplish this mission. Each bureau
                   has its own specific authorizing legislation and its own policies
                   and processes to manage concessions.
LAKE MEAD MARINA
                   None of the bureaus were able to provide complete and current
                   data on the concessions program. Some bureaus were unable to
                   provide an accurate count of concession agreements. Based on
                   the information the bureaus provided, we estimate there are well
                   over 600 concession agreements.

                   In 2003, concession operations on DOI lands generated at least
                   $850 million in annual gross receipts to concessioners from
                   which the Department received approximately $26.7 million in
                   fees. Another approximately $22.7 million was retained in
                   concessioner special accounts. Concessioners are responsible
                   for maintaining and using the funds in these accounts for capital
                   improvement projects for facilities used in concession


                               1
operations. Concessions at NPS locations are responsible for
most of DOI’s concession revenue, bringing in approximately
$25 million of the $26.7 million. The NPS Concessions
Management Improvement Act of 1998 requires 80 percent of
the concessions revenue received by NPS to be used for visitor
services and high-priority projects, such as facility maintenance.

The individual bureaus and the Department cannot accurately
identify the costs of the concessions program. NPS estimates
that it spent approximately $11.2 million of appropriated funds
on the concessions program in FY 2003, mainly for employee
salaries and benefits. In FY 2003, NPS also spent
approximately $39.6 million of accumulated concessions
program revenue for consulting services and various projects at
individual parks. The other three bureaus could not estimate the
annual costs of the program.




            2
                                    RESULTS OF AUDIT
                                     We concluded that the management of the concessions program
                                     is not effective because the Department has not taken an active
“…respect and funding for            role in leading the program. We defined an effective concessions
the program, and                     program as one that operates using sound business principles and
recognition from upper               practices, including:
management that the
program is important                        ¾     Receiving fair return for its investment, including
would be a good start in                          recouping program expenses.
turning it around.” – from
employee survey1                            ¾     Satisfying customers with availability of service and
                                                  type of product as well as price.

                                            ¾     Providing a safe and healthy environment for visitors
                                                  and employees.

                                            ¾     Basing management decisions on complete, accurate,
                                                  and timely information.

                                            ¾     Providing employees opportunities for training and
                                                  advancement in the program.

                                            ¾     Providing proper oversight to ensure the program is
                                                  effective.

                                     The bureaus have focused primarily on satisfying customers in a
                                     safe and healthy environment leaving these other business
GRAND CANYON                         principles mostly unaddressed. We found the concessions
                                     program lacks management support and effective policy and
                                     guidance. Additionally, the program does not have a strong
                                     human capital strategy and does not have an integrated
                                     management information system. In this regard, the respondents
                                     to our survey opined that the best ways to provide organizational
                                     support for concession operations are to improve management
                                     information (80 percent) and to provide additional and better
                                     training (83 percent).

                                     The Department has established, as part of its strategic plan, a
                                     goal of providing for and receiving fair value in recreation.
                                     However, in our opinion the Department is not receiving a fair
                                     return in its concessions program. Although the Department has

1
  We conducted a survey of employees in all four bureaus working with the concessions program.
Throughout the report we will use some of the comments provided in the employee responses to help
illustrate the issues. Additional information about the employee survey is presented in Appendix 2.


                                                    3
             some of the most spectacular resources and wilderness areas in
             the world, it is still receiving a very low rate of return (about 5.7
             percent) in comparison to other federal and state agencies
             operating concession programs.

             The Department only controls $26.7 million of fees generated by
             the concessions program. (This amount excludes fees held in
             concessioner special accounts.) Thus the program return is even
             lower than the estimated 5.7 percent. If we were to subtract the
             program cost (at least $11 million for NPS salaries and benefits),
             the Department actually nets less than $15 million from a
             program that grosses over $850 million to concessioners.

             Two task force reports, at least nine OIG reports, numerous GAO
             reports and testimony, as well as several consulting studies have
             pointed out problems with concessions management and offered
             solutions. Despite these efforts, the Department has yet to take
             effective action to improve this program. For example, in 1991
             the Secretary established a Concessions Management Task Force
             (Task Force) to examine the Department’s concessions
             management and suggest improvements. The Task Force made
             many recommendations including establishing central
             coordination and focus for concessions management at the
             Department. This recommendation and others requiring
             Departmental involvement were never implemented.

             Currently, all the four bureaus’ concessions programs have
             problems and NPS’ program is facing critical issues. At the
             same time, BLM and FWS are making efforts to expand their
             programs. Based on existing problems and impending
             expansion, it is imperative that the Department take the lead in
             implementing an effective concessions program. In doing so, it
             also needs to address three critical areas: human capital,
             management information, and policy and guidance.

             Our report also contains information about the concession
             agreement backlog at NPS and the Department’s performance
             plan and measures for the concessions program and presents an
             alternative organizational structure for the Department’s
             consideration.

             An effective concessions program must be based on sound
LEADERSHIP   business principles and practices. Departmental leadership is
             necessary to improve business practices by leveraging expertise,
             providing consistency of operations, and establishing a
             knowledge base for the future.



                         4
                              Historically, the Department’s bureaus have operated programs
“..concessions management     (including concessions) independently without cooperative
needs to be actively          planning, shared responsibilities, or common goals. There is
supported by management       very little coordination and communication between the bureaus
all the time…. it should be   that have concession programs and virtually no communication
considered a responsibility   with the Department about concessions management.
not just another
inconvenience.” – from        The disjointed approach has failed to establish accountability and
employee survey               oversight within the Department, perpetuating poor business
                              operating practices. For example, we found poor business
                              practices in the areas of revenue collection and inspections.

                              Revenue Collection

                                   ¾    Many bureau locations were not reconciling
                                        concessioner gross sales to concession fees paid.
Many superintendents do
                                        Consequently, bureaus had no assurance that all the
not understand the nuances
                                        fees that were due were remitted. No one was held
of business operations. A
                                        accountable for ensuring that all fees due were
former concessioner stated
                                        collected. Where reconciliations are performed the
that he was able to “rule
                                        process identifies underpayments and additional
over any park
                                        revenues are collected.
superintendent.”
                                   ¾    At one location the audit team conducted a
                                        reconciliation which disclosed that the concessioner
                                        had, without bureau knowledge or approval, excluded
                                        certain gross receipts from the concession fee
                                        calculation. The local office was not conducting
                                        reconciliations because it believed that the regional
                                        office was performing the reconciliations. Again, no
                                        one was held accountable for ensuring that all fees
                                        were being collected.

                              Inspections

                                   ¾    BOR policy requires periodic external reviews of all
                                        its concessions. At the time of our audit, BOR was
                                        able to provide documentation on only one external
                                        review. This review identified 221 violations, and
                                        officials expressed concerns for the welfare of
                                        employees, visitors, and the environment. No one in
                                        BOR is ensuring these reviews are conducted or
                                        holding officials accountable for the lack of reviews.
                                        In its response to our draft report, the Department
                                        identified two other reviews that have been completed.



                                          5
     ¾     At NPS, field offices are required to evaluate and
           report annually on the concessioners’ performance to
           ensure the concessioners are delivering good quality
           services. We reviewed a summary document of
           concessioner annual ratings maintained by one
           regional office. Of the 28 offices listed, 22 offices (79
           percent) had not reported the concessioners’ annual
           ratings for 2003 to the regional office. Neither
           regional nor headquarters officials followed up on
           missing reports.

Insufficient oversight of these areas puts the Department at risk.
Lack of oversight for revenue collection increases the risk of
concessioner underpayments. At least two OIG investigations
have identified fraudulent record keeping resulting in
underpayments of concession fees. Also, lack of oversight or
inspections of concessioner operations heightens the risk of
damage or degradation to natural resources.

For example, one external review that was conducted identified
several contract, environmental, health, and safety violations.
The review team consisted of BOR personnel from other
locations and private contractors. The review team found a
“milk truck” being used for temporary sewage storage that was
not secured and at risk for potential failure. Because the tank
truck was located close to the lake (which is used for drinking
water), the review noted that “there is a high potential for
                                             significant
                                             environmental and
                                             health risks in the
                                             event of a release.” In
                                             addition, the review
                                             team found that the
                                             truck used to transport
                                             the sewage from the
                                             “milk truck” to
                                             permanent storage
appeared run down and “operation of safety systems (lights,
brakes, seat belts, engine) could not be verified.” The review
team stated failure of the vehicle could “lead to loss of life and
significant environmental damage to the lake.” These reviews
can act as deterrents to concessioner fraud; detect environmental,
safety, and health hazards; and prevent damage and destruction
to public lands. In its March 18, 2005 response, the Department
reported that contract, environmental, and health and safety



            6
                               issues associated with this example have been resolved.

                               The Department could help the bureaus improve concessions
                               program business practices by leveraging the expertise that is
                               already available at certain recreation units and within the NPS’
                               Concessions Program Center. Also, to improve knowledge
                               sharing, the Department could adopt some innovative approaches
                               that have been used in other organizations. For example, the
                               U.S. Forest Service has created a regional concessions team to
                               help create consistency in operations and consolidate functions.
                               California is implementing similar practices for its parks based
                               on recommendations from outside experts. During our audit, we
                               found the Pacific West Region of NPS has implemented a
                               network of parks to provide various expertise and assistance to
                               each other. Because of the historic lack of coordination and
                               consistency between bureaus and offices, the Department’s
                               leadership would be necessary to apply these approaches across
                               bureaus.

                               We recommend the Department:

                                    ¾    Establish a Departmental level official with oversight
                                         responsibilities for the concessions program.

“…this program is both              ¾    Establish a Departmental working group to
misunderstood and lacking                standardize policies and improve business practices.
support at the highest level
of the organization.” – from        ¾    Take steps to improve overall program performance.
employee survey                          For example:

                                          •   Create a formal structure for providing technical
                                              assistance and sharing knowledge.

                                          •   Establish a Departmental level team for
                                              processing and monitoring complex, high-dollar
                                              concession agreements.

                               The Department lacks an effective human capital strategy for the
INVESTMENT IN HUMAN            concessions program. The first priority of the strategy should be
CAPITAL                        to design a career path for concessions program management.
                               This strategy must also support training efforts, identify and
                               address recruitment and retention issues, and limit concession
                               activities handled by collateral duty employees. In addition,
                               training should be provided to NPS park superintendents who
                               have authority over concessions program activities and personnel
                               at the field level.


                                          7
“The lack of                  There is a strong perception that concessions management is an
communications, lack of       unwanted stepchild in NPS and the other bureaus. Discouraged
current policies and          employees are unlikely to optimize this program’s performance.
regulations, and lack of      Skilled employees have been leaving the program for other
leadership are causing        career opportunities. Our survey of employees working in the
people to want to leave the   concessions management field identified career development as
program – that’s bad          critical and particularly emphasized deficiencies in training. In
news.” – from employee        our survey, 83 percent of the respondents identified training as
survey                        one of the best ways to support and improve concessions
                              management.

                              As early as 1992 the Task Force recommended that the
                              Department design a training program and develop a career path
                              for concessions program employees. In 2000, GAO reported that
                              NPS should address the area of inadequate qualifications and
                              training for concessions program personnel. NPS did establish a
                              training program in 2001. However, to date most of its
“There is no defined career   concessions personnel have not attended this training. The other
path in concessions           bureaus have not developed a formalized training program, and
management and it has         as a result many employees may lack the basic business skills
always been an unwanted       needed for concessions management.
stepchild….” - from
employee survey               Collateral duty personnel are not the best choice for managing
                              concessions. They generally do not possess the business skills
                              needed to effectively oversee the concessions program. The
                              Department should seek to reduce the use of collateral duty
                              personnel and centralize concessions management functions
                              among bureaus into fulltime regional positions. Regionalization
                              should be designed based on such things as proximity, similarity
                              in concession activities, and size and complexity of concessions,
                              rather than the traditional bureau or regional structure. Any
                              remaining collateral duty employees must be supported by access
                              to a network of technical experts. In response to our survey, 71
                              percent of the respondents believed that establishing a circuit
                              rider position to provide business/contract expertise and support
                              of field offices would improve concession operations.


                              We recommend that the Department:

                                  ¾ Develop and implement a comprehensive human capital
                                    strategy that focuses on recruiting, supporting, and
                                    promoting employees with the expertise and skills to
                                    accomplish the current objectives and long-term program
                                    goals, including:

                                        •       A defined career path.


                                            8
                                   •       A comprehensive training program.

                                   •       A defined plan to recruit and retain individuals
                                           with appropriate business skills.

                                   •       Regionalizing concessions functions and limiting
                                           the use of collateral duty personnel.

                                   •       A network of technical experts to support any
                                           remaining collateral duty employees.

                         The Department does not have an integrated management
MANAGEMENT               information system for concessions. An integrated management
INFORMATION SYSTEM –     information system to collect and report comprehensive data for
TO CAPTURE AND           concessions management should include information on
REPORT INFORMATION       concession agreements, concessioner performance evaluations,
                         financial reports, facility ownership, and capital improvement
                         projects.

“We are stymied in our   We were unable to obtain a timely or complete database of
attempts to share        concessions information from any single source within the
information….” – from    bureaus or the Department. We determined that data entry is
employee survey          often duplicated, data are not always accurate, and information is
                         not readily available to managers. NPS and BOR have
                         information systems in varying stages of development, but there
                         are no plans for an integrated system for the concessions
                         program.

                         As far back as 1992, the Task Force report identified the need for
                         a common data system that would provide easily obtainable
                         concessions information for the Department. An outside
                         consultant reiterated the need for an integrated information
                         system within NPS in its 2001 study. Also, 80 percent of the
                         employees responding to our survey identified a need to improve
                         management information.

                         An integrated information system would provide information at
                         all levels needed to make informed decisions. For example:

                              ¾    Reconciling reported gross revenues to concession
                                   fees paid.

                              ¾    Tracking concessioner ownership interest to
                                   successfully negotiate concession agreement renewals.



                                       9
                                   ¾    Tracking concessioner reviews to ensure public safety
                                        and contract performance.

                              The Forest Service has successfully implemented an integrated
                              information system that provides Service-wide information for
                              its concessions program. The Department may be able to use this
                              system as an example of a promising practice.

                              We recommend the Department:

                                 ¾ Develop and implement an integrated management
                                   information system for maintaining and reporting
                                   concession data.

                              There is a lack of Department-wide program guidance for
POLICY AND GUIDANCE           concessions management. The bureaus’ efforts to issue guidance
                              have often faltered and much of this guidance is still incomplete.
                              For example, BOR developed draft guidance in response to a
                              May 2000 OIG report; however, as of December 2004 this
                              guidance had not been issued. In 1998, the NPS Concessions
                              Management Improvement Act made fundamental changes to the
                              NPS concessions program including how to handle concessioner
                              capital investments. Six years later, NPS has still not issued
“…parks and regions are       complete guidance on valuing concessioner ownership in capital
struggling to develop their   investments or using Commercial Use Authorizations (a
own way of doing business     simplified tool for issuing concession agreements).
and also interpretation of
laws and policy. This         Without support from the Department, and with only incomplete
causes a lot of wasted time   guidance from bureaus, individual concession managers must
and a program with little     interpret laws and regulations to develop business procedures and
consistency….” – from         methodologies. This has caused inconsistency within the
employee survey               program and exposes the Department to risks in critical areas.
                              This is especially apparent in the area of concessioner capital
                              improvements and concession agreements.

                              Concessioner Capital Improvements

                              Neither the Department nor the bureaus have policies or
                              guidelines that address the valuation and tracking of concessioner
                              capital improvements. Concessioner capital improvements are
                              projects funded by the concessioner to construct or improve
                              facilities on public lands. The costs of capital improvements are
                              critical in determining the value of concession facilities. By not
                              tracking capital improvements, DOI runs the risk of
                              concessioners inflating ownership interest values for future
                              concession agreement negotiations. As part of the contract, any
                              new concessioner or the Department would have to buyout the


                                         10
previous concessioner’s interest in the facilities. The result could
be a lack of competition for future contracts and a possible
decrease in revenues received from the concessioner.

Failure to track improvements has made the valuation and
contract process more difficult, and in at least two contract
renewals resulted in restricted competition and static rather than
increased concession fees.

For example, in conjunction with issuing a new concessions
agreement at a park, NPS could not defend its appraisal of the
value of capital improvements in arbitration. The arbitration
panel set the value at $165 million, more than triple the $49
million the NPS had estimated. Because a new concessioner is
required to purchase the previous owner’s interest in these
facilities at the value set by the arbitrator, the high arbitrated
value of the facilities would logically result in a limited pool of
prospective bidders. In an attempt to get additional bidders, NPS
chose only a minimal (0.1 percent) increase in concession fees.
In the end, only the current concessioner submitted a responsive
bid. As a result, NPS is getting a 3.8 percent concession fee.
NPS estimated that, at the original appraisal value of $49 million,
NPS might have received a concession fee as high as 17 percent
of gross revenues. In other words, NPS received $2.7 million in
concession fees in 2002, when it could have received as much as
$11.6 million, if a 17 percent rate had been obtained. Had NPS
tracked capital improvements to these facilities, it would have
been in a stronger position to defend its appraisal.

As of November 2004, NPS still lacks clear policy on
establishing and tracking improvement values. In our opinion,
NPS needs to do more to prevent repetition of the problem
described above.

Other bureaus have not yet suffered a financial loss as a result of
the lack of concessioner capital improvements policies.
However, as concession agreements terminate these bureaus
potentially face this situation. Further, BLM and FWS are
planning to expand their programs but do not have adequate
policies and guidance in place to manage the issue of
concessioner capital improvements. This will inevitably create
additional problems unless the Department takes action.

Policy on Concession Agreements

Currently, the Department has no guidance regarding the
appropriate methodologies and requirements for concession


           11
agreements. With the exception of NPS, we found the bureaus’
guidance on concession agreements insufficient and outdated.
During our audit we identified potential problems with the
agreements currently in place.

At BLM, at least three concession leases contain provisions
which appear to violate current statutes. One of these leases had
been awarded for a period of 50 years and was renewable in
perpetuity. This appears to establish a preferential right of
renewal which would be inherently anti-competitive and violate
the Competition in Contracting Act.

In the same lease, the concessioner was allowed to reduce
amounts owed based on the costs of capital improvements. BLM
may have adopted this clause from NPS concession practices.
However, while NPS had specific authority to accept this kind of
payment, the other bureaus did not. Accepting capital
improvements in lieu of fees is an apparent violation of the
Economy Act. This Act requires the Government to collect fair
market value in exchange for a lease of Government property.
BLM is currently working with the Office of the Solicitor to
evaluate and resolve these issues on the leases we identified.

Because the Department lacks policy and guidance, bureaus are
forced to develop their own ways of doing business. As a result,
inconsistencies are common, and the Department is exposed to
risks, including litigation, loss of revenue, and restricted
competition which may impact the quality of services provided
to visitors.

We recommend the Department:

   ¾ Develop and implement standard policies and guidance
     for the concessions program, including:

       •   A system for monitoring and tracking the value of
           concessioner capital improvements.

       •   A standard template for each type of concession
           agreement within the bureaus.

       •   A single point of contact within the Department to
           review concession agreements for legal sufficiency.

   ¾ Review all current concession agreements for legal
     sufficiency and take remedial action where necessary.



           12
                             NPS does not have a comprehensive plan to reduce the backlog
CONCESSION                   of concession agreements operating under extensions. In April
AGREEMENT BACKLOG            2004, NPS reported that 256 concession agreements (43 percent)
AT NPS                       were operating under extensions. Many of the concession
                             agreements operating under extensions are receiving significantly
                             lower fees in comparison to what NPS receives on newly issued
                             contracts. NPS may be able to increase revenues as it resolves
                             the concession agreement backlog. Resolving the backlog could
                             also result in more dollars available for facilities maintenance.

                             During our review, concession officials identified the following
                             obstacles to timely reduction of the backlog:

                                  ¾     Lack of qualified staff.

                                  ¾     Lengthy solicitor review periods.

                                  ¾     Lack of funds available for prospectus development.

                                  ¾     Lengthy timeframe for prospectus development.

                                  ¾     Other priorities.

                             The concession agreement backlog has been a major issue since
The NPS concessions          at least 1999. Both the OIG and GAO have made
program “lacks a contract    recommendations to address this issue. Further, both an outside
rollover strategy for the    consultant and the Concessions Management Advisory Board
‘tidal wave’ of contracts    have urged NPS to take action and increase its tempo in
that need to be relet over   resolving this issue. A plan was developed, including
the next two to three        outsourcing of some concession contracting activities, but it was
years.” – Consultant’s       never finalized. The plan did not contain target dates or designate
Report, July 2001            a responsible official to ensure timely completion of the plan.

                             We recommend the NPS:

                                ¾ Develop and implement a comprehensive plan to reduce
                                  the backlog of concession agreements operating under
                                  extensions. Identify a responsible official to ensure
                                  timely completion of the plan.

                             In its strategic plan, the Department has two outcome goals
PERFORMANCE PLAN             related to recreation:
AND MEASURES
                                  ¾     Provide for a quality recreation experience.


                                        13
                      ¾    Provide and receive fair value in recreation.

                 Achievement of these goals relies on a strong concessions
                 program, with which the Department continues to struggle. The
                 Department does not have accurate information to measure its
                 performance against these goals. For example, information to
                 report on the measure of fair value relies on the collection of
                 revenue data. However, the bureaus could not accurately
                 identify concessions activity or report revenue in a timely
                 manner.

                 Currently, NPS has a significant backlog of concession
                 agreements operating under extensions. This backlog impedes
                 the Department’s efforts to achieve its goal of receiving fair
                 value in recreation. We believe the Department should consider
                 adding a key measure tracking the reduction of this backlog as
                 part of the strategy to achieve this goal.

                 We also noted that concession personnel in the field are unaware
                 of the importance of this program to the Department’s strategic
                 plan. For example, an FWS manager told us FWS has no
                 strategic goals for the concessions program. If the Department is
                 to achieve its strategic recreation goals, the Department must
                 emphasize the importance of this program to the individual
                 bureaus.

                 An option the Department should consider in seeking to improve
ALTERNATIVE      the program, in consultation with appropriate Congressional
ORGANIZATIONAL   staff, is the implementation of a non-appropriated fund
STRUCTURE        instrumentality (NAFI) structure. A NAFI presents a proven
                 concept for managing a concessions program. The concept has
                 been used successfully at the Department of Defense, the
                 Department of Veterans Affairs, and other federal agencies. The
                 use of a NAFI would solve many of the existing problems within
                 the Department’s program. For example, a NAFI would have the
                 authority to borrow funds which could facilitate buyout of
                 concessioner ownership interest and provide capital for facility
                 improvements. Implementation of a NAFI has been
                 recommended by a business consultant and the NPS Concessions
                 Management Advisory Board. For additional information about
                 a NAFI structure, please see Appendix 3.




                            14
            RECOMMENDATIONS,
    ASSISTANT SECRETARY RESPONSE, AND
    OFFICE OF INSPECTOR GENERAL REPLY
                 In the March 18, 2005 response (Appendix 5), the Assistant
                 Secretary generally agreed with the nine recommendations.
                 The response also included suggested changes to the report and
                 additional information that we considered and included as
                 appropriate.

                 Based on the Department’s response, we classified
                 Recommendations 2, 3, 4, 5, 7, 8, and 9 as management
                 concurs but additional information required and
                 Recommendations 1 and 6 as unresolved. Although the
                 Department agreed in part with the recommendations, we
                 considered the two recommendations unresolved because the
                 proposed actions did not meet the intent of the
                 recommendations as discussed below.

                 We recommend that the Assistant Secretary for Policy,
                 Management and Budget:

                 1. Establish a Departmental level official with oversight
                    responsibilities for the concessions program.

DOI Response     The Department concurs in part with the recommendation. The
                 Department believes that an approach emphasizing coordination
                 and periodic Departmental review is more suitable for most
                 aspects of the program, with the exception of appraisals. The
                 Department offered an alternative action in response to
                 Recommendation 2, to establish a working group to enhance
                 Departmental coordination.

OIG Conclusion   While we agree that a working group will enhance
                 Departmental coordination, the response does not provide for a
                 responsible official with the authority to ensure coordination
                 among the bureaus and implementation of any
                 recommendations for program improvements. In 1991, the
                 Secretary established a Concessions Management Task Force to
                 examine the Department’s concessions management and
                 suggest improvements. As noted in our report, the Task Force


                                  15
                 identified many of the same issues, but its recommendations
                 were never implemented. Without a responsible official at the
                 Departmental level, a working group may again develop
                 recommendations for improvements without implementation.
                 We request the Department to reconsider its response and
                 provide a corrective action plan including target dates and title
                 of official responsible for implementation.

                 2.   Establish a Departmental working group to standardize
                      policies and improve business practices.

DOI Response     The Department concurs with this recommendation. The
                 Department will establish a working group composed of
                 members from each relevant bureau to share information,
                 improve business practices, and identify the circumstances
                 where standardization might be appropriate. This group will be
                 directed to complete its initial analysis by December 2005.

OIG Conclusion   Although the Department concurred with the recommendation,
                 additional information is needed (please provide the title of the
                 responsible official).

                 3. Take steps to improve overall program performance. For
                    example:

                      •   Create a formal structure for providing technical
                          assistance and sharing knowledge.

                      •   Establish a Departmental level team for processing and
                          monitoring complex, high-dollar agreements.

DOI Response     The Department concurs in part with the recommendation and
                 indicated the working group referenced above will be
                 responsible for making recommendations to improve program
                 performance. In addition, the group will evaluate the extent to
                 which additional review of certain high dollar agreements
                 would be useful and how such reviews could be accomplished.

OIG Conclusion   We agree with the Department’s response indicating the use of
                 the working group to evaluate ways to improve program
                 performance. Please provide additional information
                 identifying the title of the responsible official and target
                 completion dates.

                 4. Develop and implement a comprehensive human capital
                    strategy that focuses on recruiting, supporting, and


                                    16
                      promoting employees with the expertise and skills to
                      accomplish the current objectives and long-term program
                      goals, including:

                      •   A defined career path.

                      •   A comprehensive training program.

                      •   A defined plan to recruit and retain individuals with
                          appropriate business skills.

                      •   Regionalizing concession functions and limiting the use
                          of collateral duty personnel.

                      •   A network of technical experts to support any
                          remaining collateral duty employees.

DOI Response     The Department concurs with the recommendation.
                 Departmental and bureau human resource staffs will be asked
                 to develop human capital strategies responsive to the
                 recommendation with input from the working group. Bureaus
                 will be requested to complete this work by September 2005.

OIG Conclusion   The Department concurred with the recommendation and has
                 provided for the strategies to be developed by the bureaus.
                 Please provide the titles of officials responsible for each
                 bureau’s efforts, and the title of the official responsible for
                 coordinating the working groups input.

                 5.   Develop and implement an integrated management
                      information system for maintaining and reporting
                      concession data.

DOI Response     The Department concurs with the recommendation. The
                 Department agrees that no enterprise IT system currently exists
                 and will analyze the capacity for the Financial and Business
                 Management System to provide the management information
                 needed. The recommendation will be considered by the
                 working group during the next full budget cycle for planning
                 IT investments (FY 2007), and the group will provide a
                 recommendation as appropriate to the Chief Information
                 Officer.

OIG Conclusion   The Department agreed with the recommendation, but
                 additional information is required. Please provide the title of
                 the responsible official and target completion date.



                                    17
                 6.   Develop and implement standard policies and guidance for
                      the concessions program, including:

                      •   A system for monitoring and tracking the value of
                          concessioner capital improvements.

                      •   A standard template for each type of concession
                          agreement within the bureaus.

                      •   A single point of contact within the Department to
                          review concession agreements for legal sufficiency.

DOI Response     The Department concurs with the recommendation. The
                 working group process will be used to develop some standard
                 elements for concession agreements. The Department will also
                 work with the Solicitor to assure that a clear point of contact is
                 designated within the Office of the Solicitor to ensure
                 consistency where appropriate.

OIG Conclusion   We agree with the response to designate a point of contact
                 within the Office of the Solicitor; however, the response did
                 not provide sufficient information for us to consider the
                 recommendation resolved. The response did not address
                 monitoring and tracking the value of concessioner capital
                 improvements and did not identify a responsible official.
                 Please reconsider the recommendation and provide a corrective
                 action plan, including target dates and title of responsible
                 official.

                 7.   Review all current concession agreements for legal
                      sufficiency and take remedial action where necessary.

DOI Response     The Department concurs in part with the recommendation. The
                 Department does not agree that a comprehensive review as
                 proposed in the recommendation is likely to yield information
                 that will improve program management. Alternatively, the
                 Department is proposing that each bureau, in conjunction with
                 the Office of the Solicitor, review a subset of concession
                 agreements that represent about 50 percent of the total returns
                 to that bureau by December 2005.

OIG Conclusion   We agree with the Department’s proposed solution of
                 conducting legal reviews of a representative subset of
                 concession agreements. However, additional information is
                 needed. Please provide the title of the responsible official at
                 each bureau.


                                   18
                 8.   Develop and implement a comprehensive plan to reduce the
                      backlog of concession agreements operating under
                      extensions. This plan should identify a responsible official
                      to ensure timely completion of the plan.

DOI Response     The Department concurs with the recommendation. Each
                 bureau will be requested to identify a schedule to eliminate its
                 backlog and track its progress. Thus bureaus will be
                 responsible for implementation and tracking. However, the
                 working group will also track the progress in reducing the
                 backlog.

OIG Conclusion   The Department concurred with the recommendation; however,
                 additional information is needed. The Department assigned
                 responsibility to the bureaus but did not provide responsible
                 official(s) or target dates for implementation and tracking of
                 the backlog of concession agreements operating under
                 extensions. Please provide the titles of responsible officials
                 and target dates for completion.

                 9.   Consider adding a key performance measure tracking the
                      reduction of the backlog of concession agreements
                      operating under extensions as part of the strategy to achieve
                      this goal.

DOI Response     The Department concurs with the recommendation. Bureaus
                 will be asked to consider adding a performance measure to
                 track progress in reducing backlogs. The working group will
                 be tasked to develop alternative measures for consideration.

OIG Conclusion   The Department assigned responsibility to the bureaus but did
                 not provide responsible official(s) or target dates for ensuring
                 consideration of adding a key performance measure. Please
                 provide the additional information indicated.




                                   19
This Page Intentionally Left Blank




               20
                                                                            Appendix 1


     OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Department’s management
practices promote an effective concessions program. We examined concession
management activities at the National Park Service (NPS), Bureau of Land Management
(BLM), Bureau of Reclamation (BOR), and Fish and Wildlife Service (FWS). We
evaluated the management of concession agreements between bureaus and concessioners.
We excluded agreements that BOR entered into with state and local governments to
manage recreation, including concession agreements, on BOR project lands.

To accomplish our objective we:

     ¾    Reviewed laws, regulations, policies, and guidance relating to the concessions
          management process.

     ¾    Obtained and analyzed data available on the number and location of
          concessions, revenue generated, fees received, capital investments, and other
          data available.

     ¾    Interviewed concessions program officials to obtain information on the
          processes and controls in place for procuring and monitoring concession
          agreements. We developed flowcharts of the procurement and contract
          oversight processes for each bureau and for various fee collection processes at
          sites visited. We also obtained information on agreement provisions,
          contracting mechanisms, capital investments, staff qualifications, training,
          concession inspections, and other concessions-related information.

     ¾    Examined prior audit reports, Government Performance and Results Act
          goals, Departmental Performance and Accountability Reports, Congressional
          testimony, and various reports issued by advisory groups providing suggested
          improvements on concessions management.

     ¾    Reviewed and considered concessions management practices used by the U.S.
          Forest Service, U.S. Department of Defense, State of California, and State of
          Florida.

     ¾    Developed and distributed a survey questionnaire to concession/recreation
          employees. See Appendix 2 for the results of the survey.




                                          21
During the audit, we judgmentally selected the locations listed below for audit site visits.

                                  National Park Service

Concession Program Center                                          Denver, CO
Concession Program Division                                        Washington, D.C.
Golden Gate National Recreation Area                               San Francisco, CA
Grand Canyon National Park                                         Grand Canyon, AZ
Intermountain Region Office                                        Denver, CO
Midwest Region Office                                              Omaha, NE
National Capital Region Office                                     Washington, D.C.
Northeast Region Office-Philadelphia                               Philadelphia, PA
Pacific West Region Office                                         Oakland, CA
Petrified Forest National Park                                     Petrified Forest, AZ
Southeast Region Office                                            Atlanta, GA

                              Bureau of Land Management

Lake Havasu Field Office                                           Lake Havasu City, AZ
Washington Office                                                  Washington, D.C.

                                 Bureau of Reclamation

Central California Area Office                                     Folsom, CA
Lake Berryessa Field Office                                        Napa, CA
Mid-Pacific Region Office                                          Sacramento, CA
Montana Area Office                                                Billings, MT
Office of Program and Policy Services                              Lakewood, CO

                                Fish and Wildlife Service

Crab Orchard National Wildlife Refuge                              Marion, IL
Division of Visitor Services & Communications                      Arlington, VA
J.N. “Ding” Darling National Wildlife Refuge                       Sanibel, FL
Southeast Region Office                                            Atlanta, GA


We performed our audit from March 2004 to December 2004 in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that we
considered necessary under the circumstances. We included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Internal control and compliance weaknesses identified during our audit are
discussed in the Results of Audit section of this report. The recommendations, if
implemented, should improve the internal controls in these areas. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies or
noncompliance with laws and regulations that may have existed at the time of our audit.


                                             22
                                                                               Appendix 2



              RESULTS OF EMPLOYEE SURVEY
As part of our audit, we conducted an employee survey reaching out to National Park
Service, Bureau of Land Management, Bureau of Reclamation, and Fish and Wildlife
Service employees involved at all levels of concessions program management. The
purpose of the survey was to identify existing practices and processes used for
concessions management. We sent questionnaires to 251 employees with concession
responsibilities and 83 (33 percent) responded. Listed below are the results of selected
questions from the survey.


Concession Responsibilities
What are your concessions program responsibilities? Please select those that apply:
    Prospectus development                                                             75%
    Contract development and/or negotiation                                            73%
    Setting concession fees                                                            36%
    Monitoring/processing concession fee collections                                   69%
    Performing evaluations of concessioner operations                                  82%
    Performing health and safety inspections of concession facilities                  51%
    Performing condition assessments of concession facilities                          46%
    Other(s) Identified                                                                58%
    No option selected by respondent                                                     1%
If concessions management/oversight is a collateral duty, what estimated percent of your
time per pay period is usually spent on concession-related activities? Please select one:
    1-9%                                                                               36%
    10-24%                                                                             11%
    25-49%                                                                             11%
    50-74%                                                                               6%
    75-99%                                                                               1%
    Not applicable – full-time employee                                                33%
    No option selected by respondent                                                     2%

Concessions Program Training
How much concession-specific training have you received during the last two years?
Please select one:
   0 hours                                                                         36%
   1-8 hours                                                                        8%
   9-24 hours                                                                       5%
   25-40 hours                                                                     16%
   Over 40 hours                                                                   35%




                                            23
Concessions Management Information
Does your office maintain an electronic database of concessions management
information?
    No                                                                            40%
    Yes                                                                           50%
    Not applicable-not needed                                                      5%
    No options selected by respondent                                              5%
Would an electronic management information system be helpful to you for the following
purposes?
    Concession fee determination                                                  53%
    Concessioner bid selections                                                   47%
    Determine capital improvement needs for concession facilities                 59%
    Monitor concessioner performance and adequacy of services                     57%
    Determine how concession fee collections are used                             58%
    Construction project priority setting                                         51%
    GPRA reporting                                                                42%
    Activity Based Costing                                                        36%
    No options selected by respondent                                             16%

Internal Reviews
Is there a process for performing independent internal reviews of concession management
activities in your agency/office?
    No                                                                             49%
    Yes                                                                            33%
    Not Applicable                                                                  7%
    No options selected by respondent                                              11%

Other
In your opinion, what is the best way to provide organizational support for concession
operations? Please select all that apply:
    Improving management information                                                 80%
    Providing more/better training                                                   83%
    Contracting with private firms to provide business/contract expertise            36%
    Establishing a “circuit rider” position to provide business/contract
    expertise and support to field offices.                                          71%
    Re-structure lines of authority to provide increased centralization of
    concession operations.                                                           31%
    Other(s) identified                                                              39%
    No options selected by respondent                                                  4%




                                           24
                                                                                Appendix 3


NON-APPROPRIATED FUND INSTRUMENTALITY
A non-appropriated fund instrumentality (NAFI) is a possible organizational option for
the Department of the Interior’s concessions program. Implementation of a NAFI has
been recommended by a business consultant and the National Park Service Concessions
Management Advisory Board.

A NAFI is an organizational and fiscal entity that performs an essential government
function as a public trust, specifically using non-appropriated funds. Non-appropriated
funds are cash and other assets received from sources other than monies appropriated by
Congress. For Departmental bureaus, these funds may be generated by activities such as
concessions, entry fees, and other user fees such as campground or transit fees.
A NAFI has its own funding system and its own accounting system. One of the key
benefits of a NAFI is that funds are not required to be maintained in a treasury account.
Instead, funds can be maintained in a secured private sector account, earning interest,
which can then be used by the NAFI. A NAFI maintains custody and control over its
non-appropriated funds and any appropriated funds made available to carry out its
function. NAFIs are required to use industry standard generally accepted accounting
principles. Among the key distinctions of a NAFI is the authority to use debt in a similar
fashion to private sector businesses.

Although the use of a NAFI is something the Department may wish to consider, the
bureaus do not currently have the authority to implement a NAFI. To effectively
establish a NAFI, the Department needs to acquire necessary authorizations and develop
the institutional support structure required for successful implementation. Further, start-
up capital would be required and stakeholder support would be necessary. NAFI is a
potential long-term solution but would require time and expertise to implement.




                                            25
This Page Intentionally Left Blank




               26
                                                                                Appendix 4



                               PRIOR AUDITS
In the past five years, the OIG issued six audit reports and GAO issued one report related
to DOI concession program issues.

   •   “Collection and Use of Franchise Fees, National Park Service,” OIG Report No.
       2003-I-0034, March 2003 and “Survey Report Collection and Use of Franchise
       Fees, National Park Service,” OIG Report No. 01-I-116, January 2001.

              ¾ The 2003 report concluded that NPS had not effectively implemented
                the prior recommendations from the 2001 audit report on revising
                guidelines on the use of franchise fees. Further, the report found that
                improvements were needed over the collection, deposit, and use of
                franchise fees.

   •   “Advisory Report on Evaluation of Concessioner Special Accounts,” OIG Report
       No. 2002-I-0032, June 2002.

              ¾ This report concluded that special account expenditures for fiscal year
                2000 generally complied with contract provisions and NPS concession
                procedures. However, some weaknesses were noted that increased the
                opportunity for errors and irregularities, such as NPS concessions staff
                did not consistently obtain or review all of the documentation
                necessary to ensure that expenditures were appropriate and most parks
                did not reconcile invoice costs to expenditures shown on bank
                statements.

   •   “Audit Report on Concession Contracting Procedures,” OIG Report No. 99-I-626,
       June 1999.

              ¾ This report disclosed that NPS did not reissue expired concession
                contracts and permits in a timely manner, periodically adjust
                concessioners’ fees as required by the Concessions Policy Act,
                establish special accounts in accordance with NPS guidance, or
                compute fees for the use of park facilities, including housing, that were
                assigned to concessioners. As a result, concessioners operated under
                expired concession contracts and permits that contained provisions
                which were not advantageous to NPS. Additionally, the Government
                lost or delayed opportunities to gain additional revenues, and NPS may
                not have received an adequate return from concessioners' special
                accounts or from their use of park facilities.




                                           27
•   “Concessions Managed by the Bureau of Reclamation,” OIG Report No. 00-I-
    376, May 2000.

           ¾ In 2000, the OIG issued a report that found BOR had not effectively
             managed its existing concessions operations, primarily at the Canyon
             Ferry Reservoir and Lake Berryessa. This was the result of inadequate
             contract provisions and a failure to enforce existing contract
             provisions. In addition, BOR had not developed procedures to
             implement new policies, directives, and standards. One
             recommendation to complete and issue detailed guidance and
             procedures to fully implement new policies, directives, and standards
             has not been implemented.

•   “Proposed Contract No. 8-07-30-L0470 with Dynasim for the Design,
    Installation, and Operation of a Water Education Theater at Hoover Dam, Bureau
    of Reclamation,”OIG Report No. 99-I-308, March 1999.

           ¾ In 1999, the OIG issued a report that concluded BOR’s Lower
             Colorado Region did not plan and develop the proposed contract for
             the virtual reality motion simulation attraction at Hoover Dam in
             compliance with BOR’s requirements for concessions management.
             BOR personnel had not demonstrated that a new concession was
             needed by the public; determined that the concession operation was
             economically viable; or developed a request for proposal to allow
             other interested parties to participate in bidding for the new
             concession. The proposed contract also did not include required
             standard contract provisions.

•   “Park Service: Need to Address Management Problems That Plague the
    Concessions Program,” GAO Report No. RCED-00-70, March 2000.

           ¾ GAO issued an audit report on NPS concessions concluding that NPS
             management problems center on three areas: inadequate qualifications
             and training of the agency’s concessions specialists and concessions
             contracting staff; out-of-date practices in handling its contracting
             workload chronic backlog of expired contracts; and a lack of
             accountability within the concessions program. GAO stated that, for
             the most part, these problems are long-standing and are consistent with
             similar concerns raised by the Department, its Office of Inspector
             General, and NPS concessions staff. Because of these problems, NPS
             frequently has difficulty managing the performance of its
             concessioners to ensure a consistent level of quality in the services and
             facilities they provide.




                                       28
     Appendix 5




29
30
31
32
33
This Page Intentionally Left Blank




               34
                                                                Appendix 6


 STATUS OF AUDIT RECOMMENDATIONS

Recommendation             Status                  Action Required

     1 and 6       Unresolved.              Reconsider the
                                            recommendation, and provide
                                            a corrective action plan that
                                            includes target dates and titles
                                            of officials responsible for
                                            implementation.

   2, 4, and 7     Management concurs       Provide titles of the officials
                   but additional           responsible for
                   information needed.      implementation.

  3, 5, 8, and 9   Management concurs but   Provide target dates for
                   additional information   completion and titles of
                   needed.                  officials responsible for
                                            implementation.




                                 35
This Page Intentionally Left Blank




               36
PHOTOS COURTESY OF:

                   IN ORDER OF APPEARANCE:


 “El Tovar Hotel,” National Park Service, Grand Canyon Photo Gallery

 “Canyon Ferry Marina,” Bureau of Reclamation Concessions Web Site

“Lake Lodge, History on Line: Rustic Architecture 1916-1942,” National
         Park Service, Yellowstone National Park Web Site

“Lake Mead Marina,” National Park Service, Lake Mead National Park
                          Photo Gallery

 “Grand Canyon,” National Park Service, Grand Canyon National Park
                           Photo Gallery

  “Milk Truck,” Bureau of Reclamation, New Melones Lake Marina,
                   Concession Program Review




                                 37
This Page Intentionally Left Blank




               38
39
